                      0


             HOTLINE ALLEGATIONS INVOLVING
            CONTRACTS FOR PROGRAMMED DEPOT
             MAINTENANCE OF KC-135 AIRCRAFT


Report No, 98-122                         April 24, 1998




              Office of the Inspector General
                  Department of Defense
Additional Information and Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Anal sis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8B37) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at: WWW.DODIG.OSD.MIL.
Suggestions for Audits

To suggest ideas for or to request future audits, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support
Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) w-8932. Ideas
and requests can also be mailed to:
                   OAIG-AUD (ATI’N: APTS Audit Suggestions)
                   Inspector General, Department of Defense
                   400 Army Navy Drive (Room 801)
                   Arlington, Virginia 22202-2884
Defense Hotline

To report fraud, was&or abuse, contact the Defense Hotline by calling
(800) 4249098; by sending an electronic message to
Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
Pentagon, Washington, D.C. 20301-1900. The identity of each writer and calier
is fully protected.
                                     INSPECTORGENERAL
                                     DEPARTMENT    OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                     ARLINGTON. VIRGINIA 22202




                                                                         April 24, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Audit Report on the Hotline Allegations Involving Contracts for
         Programmed Depot Maintenance of KC-135 Aircraft (Report No. 98-122)


        We are providing this audit report for information and use. We conducted the
audit in response to allegations made to the Defense Hotline. Because this report
contains no recommendations, no management comments are required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard B. Jolliffe, Deputy Director, Contract Management
Directorate, at (703) 604-9202 (DSN 664-9202), Email < rjolliffeadodig .osd.mil > or
Ms. Bobbie Sau Wan, Audit Project Manager, at (703) 604-9259 (DSN 664-9259).
Email < bwan@dodig.osd.mil > . See Appendix C for the report distribution. The
audit team members are listed inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                        Office of the Iuspector General, DOD

Report No. 98-122                                                                April 24,1998
   (Project No. 7CA-8007.01)




                We performed              in           to 15 allegations made to
Defense                                    on     Programmed            Maintenance of
KC-135             which                   Air                            to Pemco
Aeroplex,                                         6 of 15 allegations.


                                                 to evaluate
                                                                     in contracting
                                   of KC-135               We also
                                                            as              to the


                                                 in this

                               We provided a drafl of          on March
                               no findings or recommendations,
                                                 we are                          in final
Table of Contents
Executive Summary

Part I - Audit Results

      Audit Background                            2
      Audit Objectives                            3
      Allegations Involving Pemco                 4

Part II - Additional Information

      Appendix A.    Audit Process
                     Scope and Methodology         8
                     Management Control Program    9
       Appendix B.   Summary of Prior Coverage    10
       Appendix C.   Report Distribution          11
Part I - Audit Results
Audit Background
    This audit was done in response to allegations made to the Defense Hotline
    regarding two contracts that Oklahoma City Air Logistics Center awarded to
    Pemco Aeroplex, Incorporated (Pemco) for pro         med depot maintenance on
    the KC-135 Aircraft. This report addresses 6 o Ynthe 15 allegations; nine other
    allegations are pending investrgation.

    The Oklahoma City Air Logistics Center is one of five air logistics centers
    under the Air Force Materiel Command that provide lifecycle weapon system
    sustainment, maintenance, and repair. The Oklahoma City Air Logistics Center
    provides logistic support and depot maintenance for the KC-135 a&raft. The
    Contracting Directorate manages and executes Oklahoma City Air Logistics
    Center contracting assignments and programs. The KC-135 IS an Air Force
    tanker aircraft used for in-flight refueling of combat and combat-support aircraft
    as well as the transfer of cargo and passen ers. The KC-135 fleet of aircraft
    makes up about two-thirds of the DOD tar& r inventory and consists of 552
    aircraft that are projected to be serviceable through the year 2030.

    Pemco’s parent company, Precision Standard, Incorporated is a diversified
    aviation and aerospace company located in Denver, Colorado. Precision
    Standard, Incorporated has three operating groups including Pemco, their
    Government service group, located in Birmingham, Alabama. Pemco provides
    aircraft maintenance and modification services for government and mihtary
    customers.

    Oklahoma City Air Logistics Center awarded Pemco two consecutive contracts
    for programmed depot maintenance. The scope of the contracts covered all
    depot-level activity including programmed depot-level maintenance;
    unprogrammed depot maintenance; modrficattons to keep the aircraft in a
    current configuratron; manufacture, repair, overhaul, and purchase of parts and
    components; overhaul, maintenance, or           of Government furnished
    property; work directed for dropin airc EtTr; and other work directed by the
    procuring contracting officer and administrative contracting officer.

    Contract F346O1-90-C-0286. In January 1990, Oklahoma City Air Logistics
    Center competitively awarded a tirm fixed price contract to Pemco for one year
    and four option years for $6.6 million to perform major upgrades, corrosion
    prevention, and other modifications on 13 aircraft. The contract lasted five
    years and is now hysically complete with a total of $281.3 million in funds
    obligated for wor E on 312 aircraft.




                                        2
                                                                         Audit Resdts




     Contract F’34601-94C-0664. In August 1994, Oklahoma City Air Logistics
     Center awarded a firm fixed price contract under competitive procedures to
     Pemco for one ear with six option years to run through FY 2001. As of June
     1997, funds ob H‘gated on the current contract totaled $153 million for 99 aircraft
     processed.

Audit Objectives
    The overall objective of the audit was to evaluate whether Oklahoma City Air
    Logistics Center followed regulations in contracting for programmed depot
    mamtenance of KC-135 a&raft. The specific audit objective was to determine
    the validity of allegations made to the Defense Hotline and to evaluate the
    management control program as it applied to the audit objectives. See
    Appendix A for a detailed discussion of the audit process and Appendix B for a
    summary of prior coverage.




                                          3
       Allegations Involving Pemco
       The Defense Hotline received correspondence alleging an assortment of
       irregularities and waste involving Oklahoma Ci Air Logistics Center
       and Pemco. Specifically, the six allegations adzes St!diIlthiSreport
       alleged  improprieties involving Pemco’s pension plans, conflicts of
       interest, misappropriated assets, unnecessary labor expenses, and
       potential aimraft safety issues. Details of the allegations, all of which
       were unsubstantiated, follow.
The Air Force failed to pursue recovery of a proportional share of the
significant monetary benefits accrued by Pemco as a result of the
company’s decision to cease contributions to its employee penslon plans.
The allegation was unsubstantiated. Prior to June 30, 1991, Pemco sponsored
seven different pension plans. On that date, Pemco merged the existing plans
into two pension plans. Based on the Internal Revenue Code, each of the two
new plans was over funded because of the merger. Pemco made no
contributions to these pension funds from June 30, 1991 through 1993. The
allegation stated that Pemco benefited from the over funded position because the
Government paid indirect rates that included pension expenses during the time
when Pemco was not making contributions to the pension funds. The indirect
rates paid under contract F34601-90-C-0286 were determined by a negotiated
agreement between Pemco and the Defense Plant Representative Office. The
agreement did not contain a contract clause that would allow the Government to
renegotiate indirect rates. The pension fund merger was made in compliance
with Cost Accounting Standards and the Federal Acquisition Regulation.
Employment of retired militaq personnel by Pemco and by Precision
Standard, Inc. (Pemco’s parent company) in a management capacity
represents a conflict of interest. The allegation was unsubstantiated. The
allegation stated that retired generals and admirals on the Precision Standard,
Inc. board of directors, and a retired colonel performing as the general manager
of Pemco, used past positions and associations to exercise undue influence over
Government decisions. The current retired military personnel serving on the
board of directors did not hold positions which would have been in the direct
chain of command for either procurement or oversight of the KC-135
programmed depot maintenance. (The chain of command for Oklahoma City
Air Logistics Center contracting and the KC-135 System Program Office is Air
Force Materiel Command.) One of the board members retired as a Navy
Admiral in 1982 and another was an Air Force General who served in the U.S.
Air Forces European Command for three years prior to his retirement in 1989.
The current General Manager of Pemco retired from the Air Force in September
1996. As the former Chief of A&raft Production Division, Oklahoma City Air
Logistics Center, he was involved in managing the Air Force KC-135 Depot
located at Tinker Air Force Base, Oklahoma. Based on the retirement date, his
post employment restrictions fall under 18 U.S. Code 207 and the Procurement
                                                  Allegations Involving Pemco



Integrity Act (41 U.S. Code 423). His sition did not violate post employment
restrictions because he was not persoFasoy and substantially involved in the
procurement or program oversi ht of the KC-135 maintenance contract with
Pemco, nor was it part of his official responsibility.
he1 from the Pemco instalhtion was misappropriated. The allegation was
unsubstantiated. This allegation stated that Pemco im roperly removed fuel
from KC-135 aircraft prior to the start of programmeB depot maintenance.
Defense Plant Representative Office personnel at Pemco believed that the fuel
was contaminated and that the fuel was being hauled away and used b the
University of Auburn for its waste oil recycling research program. d e
allegation contends that the fuel was not contaminated and that a private
company was removing the fuel for undisclosed use The Air Force Office of
Special Investigations conducted an investigation into the circumstances
surrounding the alleged missing fuel. The investigation was closed after the
Assistant U.S. Attorney, Birmmgham, Alabama, declined to prosecute because
it could not be determined that the amount of missing fuel was significant
enough to warrant further action.
KC-135 insulation was unnecesr(uily replaced and Pemco Personnel took
the scrap insulation for Personal use. The allegation was unsubstantiated.
Personnel at Defense Contract Management Command Pemco (formerly the
Pemco Defense Plant Representative Office) referred this incident to the
Defense Contract Management Command fraud counsel. The evidence
presented was deemed insufficient to warrant further investigation. Controls
were implemented to prevent any further scrap insulation removal for personal
USC

Air Force paid an tumecesary premium for production break drilling. The
allegation was not substantiated. The KC-135 wing is made in two pieces. The
outboard wing is connected to the inboard wing by six cast aluminum
components called production break fittings. The components referred to in this
allegation are the two upper production break fittings. Pursuant to the contract,
the Air Force was responsible for su lying the production break fittings as
Government furnished material. In %  1 3, the Air Force stock of upper
production break fittings was depleted and Pemco was granted authority to find
a private-sector source and to procure the production break fittings IYomthat
source whenever Government parts were not available.
Pemco found a source for upper production break fittings and placed an order
for five in July 1993, but that source had problems drilling the holes specified
by drawings. Oklahoma City Air Logistics Center engineers approved the part
for use but, to avoid further problems with predrilled holes, Pemco was
instructed to purchase production break fittings without holes and to drill the
holes on-site. The allegation stated that the Air Force was paying an
unnecessary premium for Pemco to drill holes in the reduction break fittings
because the production break fittings purchased by 0 &ahoma City Air Logistics



                                    5
Allegations Involving Pemco




      Center were manufactured according to en * eering specifications (with pre-
      drilled holes) and did not require additiona!Im
                                                    drilling.
      Oklahoma City Air Logistics Center made a ood business decision by
      authorizing Pemco to buy production break d ttings from a second source. The
      production break fittings purchased by Pemco were less than the Air Force cost,
      even with the added cost of drilling the breaks on-site. Additionally, the lead
      time f?om Pemco’s source was shorter than the lead time on Air Force
      production break contracts.
      The aircraFt completed programm ed depot maintenance without
      replacement of static port linings. The allegation was substantiated, but
      deemed to be harmless. The static port lining is an insulation pad located in the
      forward belly section of the plane between the removable fuel cell and the
      aircraft frame. Small tubes run through this section from an exterior sensor to
      the cockpit. No one could determine the actual purpose of the lining, but it is
      assumed that it is to protect either the fuel cell or the sensor tubes. The linings
      were removed to apply a corrosion preventive compound inside the aircraft and
      were not replaced before Pemco completed maintenance on the aircraft.
      This allegation was a potential flight safety issue and was referred to the Air
      Force Safety Office at Kirkland Air Force Base for determination. The Safety
      Office engineer reviewed the purpose of the linings and any possible safety
      implications. The engineer determined that the lack of a lining is not an
      imminent safety issue that would warrant the immediate replacement in the
      field. The Safety Office engineer, however, agreed with the Oklahoma City Air
      Logistics Center KC-135 program engineer that the lining should be replaced
      during the next programmed depot maintenance for each aircraft. The
      procuring contracting officer directed the contractor to install new linings when
      applying the compound and reinstall any missing linings during the next
      programmed depot maintenance.


Conclusion
      The six allegations addressed in this report were basically unsubstantiated. The
      substantiated element of the sixth allegation discussed did not represent
      infraction of any law, regulation, or safety requirement.
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology
    And& Scope. We reviewed Oklahoma City Air Logistics Center and Defense
    Contract Management Command management of contracts for programmed
    depot maintenance for KC-135 a&raft. Specificall , we reviewed contract
    actions involving Pemco under contracts F3410-C-&-02 86 and F3410-C-94-
    0664, including the Pemco request for equitable adjustments and Oklahoma City
    Air Logistics Center contract modifications. Jn performing the audit, we
    interviewed Defense Contract Management Command and Oklahoma City Air
    Logistics Center personnel involved with contract management. We reviewed
    documentation dating from 1990 through 1997.

    Audit Period, Standards, and Locations. We conducted this economy and
    efficiency audit from January 29, 1997 to May 30, 1997 in accordance with
    audit standards issued by the Comptroller General of the United States as
    implemented by Inspector General, DoD. We visited or contacted individuals
    and organizations within DOD. Further details are available upon request.
    Review of Documentation. We reviewed documentation maintained by the
    Oklahoma City Air Logistics Center and Defense Contract Management
    Command to determine the validi of the Hotline allegations applicable to
    contracts F3410-C-90-0286 and Fk 10-C-94-0664. We reviewed:
             Price negotiation memorandums
             Original contracts and contract modifications
             Defense Contract Audit Agency audit reports
             Documents relating to requests for equitable adjustment
             Internal memorandums and claim reports
             1OKform
             Partial DD 250 payments
             Air Force Materiel Command policy and procedures
             Oklahoma City Air Logistics Center Contracting policy and




                                       8
                                                     Appendix A. Audit Process




Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of the Oklahoma City Air Logistics Center management controls over
    its acquisition of programmed depot maintenance for KC-135 aircraft.
    Specifically we reviewed Oklahoma City Air Logistics Center management
    controls over compliance with applicable regulations in its acquisition of
    programmed depot maintenance.

    Adequacy of Management Controls. Our assessment of the adequacy of
    Oklahoma City Air Logistics Center management controls is still under review
    and will be addressed in a separate report.




                                      9
Appendix B. Summary of Prior Coverage

   The General Accounting Gffice issued one report on the maintenance and cost
   of the KC-135 aircraft.
   General Accounting Report No. GAOlNSIAD!X-160, “Aging Refueling
   Aircraft are Costly to Maintain and operate,” August 8, 1996. The report
   states that the Services’ air refueling tanker aimraft meet current needs,
   however, satisfying future requirements may be difficult. The long term
   serviceability of the KC-135 tanker fleet is questionable, because the aircraft are
   30 to 40 years old and taking progressively more time and money to maintain.
   The Air Force could potentially spend over $6 billion in modifications and
   structural repairs to keep the KC-135 fleet operational. Though the Air
   Mobility command believes that operating the KC-135 beyond 2020 is not
   economical, it does not plan to replace the tanker until approximately 2013.
   The DODacknowledged that they have been successful in using a single aircraft,
   such as the KC-135 to accomplish both airlift and tanker missions. However,
   DOD would not commit to the procurement of a dual use aircraft until an
   analysis can be done on an aircraft Willing both the air lift and refueling
   mission and requirements. The report recommended that the Secretary of
   Defense require that future studies and analyses of replacement airlift and tanker
   aircraft encompass both mission areas, with the goal to identify the optimum
   size, mix and time to procure a multi-mission aircraft that, when combined with
   C-5B, C-17s, and KC-lo, will meet those requirements. DODagreed that
   future studies and analyses of aircraft should mclude an analysis of using one
   aircraft to accomplish airlift and refueling missions.




                                       10
Appendix C. Report Distribution

Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Formation Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
   Commander, Air Force Materiel Command, Dayton, OH
      Commander, Oklahoma City Air Logistics Center
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Contract Management Command, Boston MA
      Commander, Defense Contract Management Command, Pemco Aeroplex, Inc.,
         Birmingham, AL




                                         11
Appendix C. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
  Senate Committee on App riations
                          “p ense, Committee on Appropriations
  Senate Subcommittee on De
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          12
Audit Team Members

This report was prepared by the Contract Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Paul J. Granetto
Richard B. Jome
Bobbie Sau Wan
David H. Griflin
Elaine M. Jennings
Marc A. Pederson
Stevenson A. Bolden
Joyce S. McCutcheon
